           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION

   MENTAL HEALTH CENTER OF
    BOULDER COUNTY, INC. –
      AN ORGANIZATIONAL
       REPRESENTATIVE
     PAYEE FOR THE SOCIAL
   SECURITY ADMINISTRATION

  September 2004   A-06-04-14038




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM

Date:   September 29, 2004                                                                    Refer To:

To:     James Everett
        Regional Commissioner
         Denver

From:   Assistant Inspector General
         for Audit

Subject: Mental Health Center of Boulder County, Inc. – An Organizational Representative
        Payee for the Social Security Administration (A-06-04-14038)


        OBJECTIVE
        Our objectives were to determine whether the Mental Health Center of Boulder County,
        Inc., (MHCBC) (1) had effective safeguards over the receipt and disbursement of Social
        Security benefits and (2) ensured Social Security benefits were used and accounted for
        in accordance with the Social Security Administration’s (SSA) policies and procedures.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’ and
        recipients’ benefit payments.1 A representative payee may be an individual or an
        organization. SSA selects representative payees for Old-Age, Survivors and Disability
        Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
        when the use of a representative payee would serve the individual’s best interest.2
        Appendix B contains additional information about representative payees’
        responsibilities.

        MHCBC is a private, nonprofit organization offering mental health and social services
        for Boulder County, Colorado. From August 1, 2002 to July 31, 2003, MHCBC acted as

        1
            42 U.S.C. § 405(j).
        2
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
Page 2 – James Everett


representative payee for 151 SSA beneficiaries. During this period, SSA paid MHCBC
approximately $312,461 on behalf of the 50 beneficiaries we selected for our review.
Appendix C contains the Scope and Methodology of our review.

RESULTS OF REVIEW
MHCBC generally had effective safeguards over the receipt and disbursement of Social
Security benefits and ensured Social Security benefit payments were used and
accounted for in accordance with SSA's policies and procedures. Specifically, MHCBC
maintained current records of receipts, disbursements, and balances identifiable to each
beneficiary. However, we identified the following areas where MHCBC needed to
improve its performance as a representative payee.

•    The administration of the beneficiary collective bank account.
•    Timely cancellation of unnegotiated checks issued on behalf of beneficiaries.
•    Notifying SSA that it received Social Security payments on behalf of individuals for
     whom MHCBC was not the designated representative payee.
•    Notifying SSA of changes in beneficiary circumstances.
•    Notifying SSA when SSI beneficiaries’ conserved funds exceed resource limits.

We also determined that information in SSA’s Representative Payee System (RPS) was
not always accurate. Finally, SSA was not able to provide us with all Representative
Payee Reports (RPR) for the beneficiaries included in our review.

ADMINISTRATION OF THE BENEFICIARY COLLECTIVE BANK ACCOUNT

MHCBC used a collective bank account for beneficiary funds; however, the funds were
commingled with MHCBC operational housing funds and funds of individuals for whom
MHCBC was not the representative payee. Further, the collective bank account lacked
a title identifying the fiduciary relationship between MHCBC and the beneficiaries. We
also found that MHCBC did not use the collective bank account for three SSA
beneficiaries. Instead, the benefit payments for these three individuals were deposited
into the MHCBC operating account. This occurred because MHCBC did not believe this
was an issue as long as individual beneficiary balances were accurately tracked within
the commingled account.

To protect beneficiaries’ funds, SSA policy states that collective accounts must be
separate from the representative payee’s operating account, and the account title must
show the funds belong to the beneficiaries and not the representative payee.3 The
account must be in a form that clearly shows the representative payee has only
fiduciary and not personal interest in the funds.4



3
    Program Operations Manual System (POMS), GN 00603.020.
4
    SSA, POMS, GN 00603.010.
Page 3 – James Everett


TIMELY CANCELLATION OF UNNEGOTIATED CHECKS

MHCBC did not timely cancel unnegotiated checks issued on behalf of beneficiaries.
While there are no definitive guidelines concerning how long a check may remain
outstanding before it should be voided, we believe the representative payee should use
a reasonable period, such as 6 months or 1 year, to follow up on unnegotiated checks
to ensure beneficiaries do not lose the use of their funds. As of July 31, 2003,
85 checks, totaling $2,085, issued during Calendar Year 2001 and 154 checks, totaling
$5,938, issued during Calendar Year 2002 had not been negotiated for payment.

This occurred because MHCBC did not have procedures to cancel checks that went
unnegotiated for an extended period of time. We notified MHCBC of this problem, and it
took action to cancel outstanding checks issued during Calendar Year 2001 and credit
the appropriate beneficiary accounts. MHCBC planned to do the same for outstanding
checks issued during Calendar Year 2002.

RECEIPT OF PAYMENTS FOR NON-REPRESENTED BENEFICIARIES

MHCBC received checks or direct deposit payments on behalf of nine SSA beneficiaries
for whom MHCBC was not the designated representative payee. None of these nine
beneficiaries had a representative payee; therefore, SSA made all the checks or direct
deposit payments payable to the beneficiaries. SSA mailed three beneficiaries’ checks
directly to MHCBC, who, in turn, endorsed and deposited the checks into the beneficiary
collective account. SSA had five beneficiaries’ payments direct deposited into the
beneficiary collective account. The remaining beneficiary used MHCBC’s address as a
mailing address where he picked up his monthly check. MHCBC considered these nine
individuals as clients to whom it provided a service. However, because MHCBC was
not designated as the representative payee for these individuals, it did not have
assigned accountability for the funds, and SSA had no assurance the funds were used
in the beneficiaries’ best interests.

NOTIFICATION OF CHANGES IN BENEFICIARY CIRCUMSTANCES

MHCBC did not always notify SSA of changes in beneficiary circumstances or return
conserved fund balances for individuals whose circumstances had changed. This
included seven beneficiaries who transferred to another representative payee, three
beneficiaries who became their own payee, and two deceased beneficiaries.

Representative payees must report changes or events that could affect the beneficiary’s
eligibility for benefits.5 SSA’s policy requires that representative payees return any
conserved funds or unused benefits to SSA to reissue funds to either a successor
payee or the beneficiary.6

5
    Representative Payment Program, Guide for Organizational Representative Payees, July 2001, page 9.
6
    SSA, POMS, GN 00603.055.A.
Page 4 – James Everett


This occurred because MHCBC did not have procedures to ensure these changes were
promptly reported to SSA. As a result, these 12 individuals did not receive $11,993 in
funds to which they were entitled. During our audit, MHCBC agreed to take action to
determine the proper disposition of these individuals’ funds.

EXCESS SUPPLEMENTAL SECURITY INCOME RESOURCES

Individuals with resources in excess of $2,000 are not eligible for SSI payments.
Individuals are expected to use these excess resources to meet their needs before
becoming eligible for SSI payments. Representative payees must notify SSA if the
conserved funds for current SSI recipients exceed the $2,000 resource limit at the
beginning of any calendar month.7

We identified three beneficiaries with account balances in excess of $2,000 as of
July 31, 2003 who received SSI payments in August 2003. We determined that
MHCBC did not effectively monitor fund balances for resource limits and, consequently,
did not notify SSA when beneficiary fund balances exceeded the resource limits. As a
result, these beneficiaries may have received SSI payments to which they were not
entitled.

INACCURATE REPRESENTATIVE PAYEE SYSTEM DATA AND MISSING
REPRESENTATIVE PAYEE REPORTS

The RPS contained inaccurate information, and SSA was not able to provide us with all
RPRs for the selected beneficiaries included in our review.

The Omnibus Budget Reconciliation Act of 1990 requires that SSA provide for specific
identification and control of all representative payees and the beneficiaries they serve.
As a result, SSA established RPS, an on-line system for entering and retrieving
information about representative payees and those applying to be representative
payees.8 Representative payees are responsible for keeping records and completing
an RPR annually to report the use of each beneficiary’s payments. In addition, SSA is
required to review the RPRs and retain them for 2 years after the last month of the
reporting period.9

We found SSA had listed MHCBC under three different names in the RPS. SSA also
had MHCBC listed as the representative payee for a beneficiary although MHCBC had
not been the beneficiary’s representative payee since 1999. When we informed SSA, it
queried the RPS and merged the multiple names into one active listing. However, as of
April 2004, there were still two inactive names listed in the RPS. Each representative


7
    SSA, POMS, SI 01110.001.A. and B., SI 01110.003.A., and GN 00605.068.F.
8
    SSA, POMS, GN 00502.120.A.
9
    SSA, POMS, GN 00605.001.B.1. and GN 00605.055.B.1.
Page 5 – James Everett


payee should be listed once in the RPS to enable users to identify all recipients in a
representative payee’s care.

SSA was not able to provide us with the RPRs for all of the beneficiaries included in our
review. We requested that SSA provide the most recently completed RPRs for
36 beneficiaries in MHCBC’s care from August 1, 2002 to July 31, 2003. SSA initially
provided 25 RPRs, but 13 did not pertain to our audit period. Therefore, SSA provided
current RPRs for only 12 of the 36 beneficiaries. Without the RPRs, we could not
independently confirm that MHCBC met its reporting responsibilities.

CONCLUSIONS AND RECOMMENDATIONS
MHCBC needs to improve its performance as a representative payee with respect to the
administration of the beneficiary collective bank account, timely cancellation of
unnegotiated checks issued on behalf of beneficiaries, notifying SSA when it receives
Social Security payments on behalf of individuals for whom MHCBC is not the
designated representative payee, notifying SSA of changes in beneficiary
circumstances, and notifying SSA when SSI beneficiaries’ conserved funds exceed
resource limits.

We recommend that SSA:

1. Direct MHCBC to establish a collective bank account specifically for SSA beneficiary
   funds that is properly titled to reflect beneficiary ownership interest and the fiduciary
   relationship between it and the beneficiaries.

2. Ensure MHCBC cancels unnegotiated checks issued during Calendar Year 2002,
   credits the beneficiary accounts, and establishes procedures for identifying and
   canceling checks issued on the beneficiary collective account that go unnegotiated
   for an extended period of time.

3. Ensure MHCBC no longer negotiates Social Security payments to beneficiaries for
   whom MHCBC is not the representative payee. In addition, SSA should determine
   whether the nine beneficiaries identified during the audit should be assigned a
   representative payee.

4. Direct MHCBC to establish procedures to timely identify and report changes in
   beneficiary circumstances to SSA and refund the $11,993 in conserved funds to the
   appropriate individuals.

5. Direct MHCBC to develop procedures to timely identify and report to SSA any SSI
   recipients with excess resources.

6. Correct the RPS to consolidate MHCBC’s multiple listings and account for all
   individuals for whom MHCBC is listed as the representative payee.
Page 6 – James Everett


AGENCY AND MHCBC COMMENTS
SSA and MHCBC agreed with our recommendations. See Appendices D and E for the
full text of the comments provided.




                                             S
                                             Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Mental Health Center of Boulder County, Inc. Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
MHCBC   Mental Health Center of Boulder County, Inc.
OASDI   Old-Age, Survivors and Disability Insurance
POMS    Program Operations Manual System
RPR     Representative Payee Report
RPS     Representative Payee System
SSA     Social Security Administration
SSI     Supplemental Security Income
                                                                            Appendix B

Background
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include1

•     using benefits to meet the beneficiary’s current needs;
•     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;
•     maintaining accounting records of how the benefits are received and used;
•     reporting events to the Social Security Administration that may affect the individual's
      entitlement or benefit payment amount;
•     reporting any changes in circumstances that would affect their performance as a
      representative payee; and
•     providing SSA an annual Representative Payee Report to account for benefits spent
      and invested.

About 7.6 million individuals have representative payees-approximately 4.5 million
are Old-Age, Survivors and Disability Insurance beneficiaries, 2.3 million are
Supplemental Security Income recipients, and 800,000 are entitled to both. The
following chart reflects the types of representative payees and the number of individuals
they serve.

                                                  Number of             Number of Individuals
     Type of Representative Payee            Representative Payees           Served

    Individual Payees: Parents,
    Spouses, Adult Children,
    Relatives, and Others                               5,333,200               6,685,100

    Organizational Payees: State
    Institutions, Local Governments,
    and Others                                                 41,500             807,400

    Organizational Payees:
    Fee-for-Service                                              900              104,200

    Total                                               5,375,600               7,596,700

Source: Master Representative Payee File as of January 2003.

1
    20 C.F.R, § 404, subpart U, and § 416, subpart F (2003).
                                                                       Appendix C

Scope and Methodology
Our audit covered the period August 1, 2002 through July 31, 2003. To accomplish our
objectives, we:

•   Reviewed the Social Security Act and Social Security Administration (SSA) policies
    and procedures pertaining to representative payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about the representative payee’s performance.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals
    who were in the representative payee’s care as of July 31, 2003 or who left the
    representative payee’s care after August 1, 2002.

•   Obtained from the representative payee a list of individuals who were in its care and
    had received SSA funds as of July 31, 2003 or who left its care after August 1, 2002.

•   Compared and reconciled the RPS list to the representative payee’s list to identify
    the population of SSA beneficiaries who were in the representative payee’s care
    from August 1, 2002 through July 31, 2003.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Old-Age, Survivors and Disability Insurance benefits and
    Supplemental Security Income payments.

•   Performed the following tests for the 50 randomly selected beneficiaries:

    o Compared and reconciled benefit amounts received according to the
      representative payee’s records to benefit amounts paid according to SSA’s
      records.

    o Reviewed the representative payee’s accounting records to determine whether
      benefits were properly spent or conserved on the individual’s behalf.

•   Traced a sample of recorded expenses to source documents and examined the
    underlying documentation for reasonableness and authenticity.

•   Reviewed a sample of Representative Payee Reports to determine whether the
    representative payee properly reported to SSA how benefits were used.

We performed our field work in Dallas, Texas, and Boulder, Colorado, between
August 2003 and March 2004. We conducted our audit in accordance with generally
accepted government auditing standards.
                                                                     Appendix D

Agency Comments

Thank you for the opportunity to review and respond to the draft report on the Mental
Health Center of Boulder County, Inc. We agree with and support each of the
recommendations. We are taking appropriate steps on recommendations 3 and 4.
Recommendation 6 has already been resolved.

If you have questions, staff may contact Renee Booker, RSI at 303-844-3481.

James Everett
                                     Appendix E

Mental Health Center of Boulder County, Inc.
Comments
MENTAL HEALTH CENTER OF BOULDER COUNTY, INC. – AN ORGANIZAIONAL
  REPRESENTATIVE PAYEE FOR THE SOCIAL SECURITY ADMINISTRATION


Response to the Draft Audit Report


ADMINISTRATION OF THE BENEFICIARY COLLECTIVE ACCOUNT:

   •   The House Funds will be removed from the Custodial Account effective October 2004.
   •   The three individuals whose monies were deposited into a different account within the Mental
       Health Center were incorporated into the Custodial Account effective January 1, 2004. Billy Mize
       was aware of this change.
   •   The Mental Health Center will re-title the Custodial Account to reflect that the MHC is the
       Representative Payee for Social Security and SSI Beneficiaries.

TIMELY CANCELLATION OF UNNEGOCIATED CHECKS:

   •   The Mental Health Center now has procedures in effect that will insure checks are cancelled and
       the funds credited to the beneficiaries on a regular basis.
           o “Void after 120 days” has been added to all checks
           o Account will be reviewed on a quarterly basis and checks will be cleared and funds
               credited to beneficiaries.

RECEIPT OF PAYMENTS FOR NON-REPRESENTED BENEFICIARIES:

   •   The Mental Health Center has received the list of names from the Boulder Social Security office.
            o The individual case managers will be contacted to determine the possibility that the
                clients can handle their own funds.
            o If the client isn’t capable of handling their own finances, the Mental Health Center will
                apply to be their payee.
   •   In reference to the individual who uses the Mental Health Centers address, the MHC does not
       negotiate the check.
            o This needs to be a service the MHC can continue to offer because many of our clients
                are homeless and this gives them a way to receive their check.

NOTIFICATION OF CHANGES IN BENEFICIARY CIRCUMSTANCES:

   •   The Mental Health Center will work with the Boulder Social Security office to disburse $11,606.31
       of reserved funds on hand and establish a procedure to handle this type of situation in the future.
            o The MHC has resolved the balance for [          ]. (Name redacted from report.)

EXCESS SUPPLEMENTAL SECURITY INCOME RESOUSCES:

   •   The Mental Health Center has established a procedure to notify case managers when the
       beneficiary’s resources are close to $2,000.

INACCURATE REPRESENTATIVE PAYEE SYSTEM DATA AND MISSING REPRESENTATIVE
PAYEE REPROTS:

   •   The Mental Health Center is setting up procedures to centralize this function.




                                                E-1
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director (214) 767-6317

   Ron Gunia, Audit Manager (214) 767-6620

Acknowledgments

In addition to those named above:

   Billy Mize, Senior Auditor

   Wanda Renteria, Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-04-14038.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
